Divulgación de Apertura de Cuenta de Tarjeta de Crédito de I Teach America Mastercard®
emitida por Banco Popular de Puerto Rico
Tasas de Interés y Cargos por Intereses
Tasa de Porcentaje Anual
(APR) para Compras

0% APR introductorio por los primeros 12 meses.

APR para Transferencias de
Balance

0% APR introductorio por los primeros 12 meses. Aplica a transferencias
realizadas dentro de los primeros 90 días de la apertura de la cuenta.

APR para Adelantos en
Efectivo
APR de Penalidad y Cuándo
Aplica

Luego su APR será desde 13.24% hasta 26.24%, basado en su historial de crédito.
Este APR puede variar de acuerdo al mercado basado en la Tasa Preferencial de
los Estados Unidos (“Prime Rate”).

Luego de esto, su APR será desde 13.24% hasta 26.24%, basado en su historial
de crédito.
Este APR puede variar de acuerdo al mercado basado en el “Prime Rate”.
24.24% hasta 28.24%, basado en su historial de crédito.
Este APR Regular puede variar de acuerdo al mercado basado en el “Prime Rate”.
29.99%1
Este APR podrá aplicar a su cuenta si no recibimos el pago mínimo requerido
durante un periodo de sesenta (60) días consecutivos desde su vencimiento.
¿Por cuánto tiempo aplica la Tasa por Penalidad? Si su APR aumenta por
esta razón, la Tasa de Penalidad permanecerá en efecto hasta que la cuenta se
ponga al día y se hayan realizado seis (6) pagos mínimos requeridos
consecutivos en o antes de su fecha de vencimiento.

Pago de Intereses

Su fecha de pago será por lo menos 25 días luego del cierre de cada ciclo de
facturación. No cobraremos intereses desde la fecha que compre bienes o
servicios, si usted paga el balance total adeudado de su cuenta en o antes de
la Fecha de Vencimiento. Si no paga el balance total adeudado, pero se
encuentra en período de gracia, no pagará intereses sobre el monto pagado en
ese ciclo de facturación. En los ciclos posteriores usted no tendrá período de
gracia hasta que pague el balance total adeudado en su cuenta durante dos
ciclos de facturación consecutivos. Los balances relacionados a ciertas ofertas
no se toman en cuenta para determinar si califica para el período de gracia, para
las cuales debe referirse a los términos y condiciones de la oferta. Los intereses
respecto a adelantos en efectivo, transferencias de balance de otras
instituciones y cheques de conveniencia se impondrán desde la fecha en que
se realice la transacción.

Para Consejos del “Consumer
Financial Protection Bureau”
sobre Tarjetas de Crédito.

Para conocer más sobre factores a considerar cuando solicita o utiliza una
tarjeta de crédito, visite la página de internet del “Consumer Financial Protection
Bureau” en http://www.consumerfinance.gov/learnmore

CARGOS

Cuota Anual

$0 Cuota Anual
$0 Cargo por Tarjeta Adicional

Cargos por Transacciones
• Adelantos en Efectivo y
Cheques de Conveniencia
• Transferencias de
Balance
• Conversión de Moneda

2% de la cantidad de cada transacción (mínimo $2; máximo $10)
2% de la cantidad de cada transferencia (mínimo $2; máximo $10)
1.4% de cada transacción en dólares americanos para Mastercard

Cargos por Penalidad
• Cheque Devuelto

Hasta $10

• Pago Tardío

Hasta $38

Cómo calculamos tu balance: Utilizamos el método llamado "balance promedio diario (incluyendo compras nuevas)."
Pérdida de APR Introductorio: Podemos terminar tu APR de introducción y aplicar el APR Regular de Compras si
cierras tu cuenta o haces un pago tardío.
Derechos de Facturación: Información sobre sus derechos a reclamar transacciones y cómo ejercer esos derechos está
disponible en el contrato de tarjeta de crédito.
1 Tasa Periódica Diaria correspondiente al APR de Penalidad es 0.0822%

POR FAVOR, LEA ESTOS TÉRMINOS Y CONDICIONES CUIDADOSAMENTE Y GUÁRDELOS PARA REFERENCIA FUTURA.
A continuación, encontrará los términos y condiciones de la cuenta rotativa de crédito establecida para usted. Su contrato completo
con nosotros incluye: (1) los términos y condiciones establecidos en este documento y en su solicitud; (2) las Divulgaciones de
Apertura de Cuenta y todas las divulgaciones y materiales que se le proveyeron antes, o en el momento, de abrir su Cuenta; (3) todos
los estados de cuenta; (4) los términos y condiciones, y divulgaciones del programa de recompensas de ser aplicables a su cuenta; (5)
nuestros avisos de privacidad; (6) cualquier otro documento relacionado con su cuenta que enviemos por correo electrónico o que
publiquemos en línea; y (7) cualquier enmienda que hagamos a dichos documentos de cuando en cuando.
El uso de las Tarjetas (la tarjeta de crédito que emitimos para que usted tenga acceso a su Cuenta) constituye una aceptación de este
Contrato. Si acepta la(s) Tarjeta(s), deberá firmarla(s) en cuanto la(s) reciba. Este contrato aplica use usted o no la Tarjeta y
continuará aplicando incluso después de cerrada la Cuenta, siempre y cuando mantenga un balance. Si opta por no aceptar la(s)
Tarjeta(s), no debe usarla(s) y debe notificarlo al Banco no más de 15 días después de recibir este contrato comunicándose con
Servicio al Cliente.
Su Contrato y Compromiso de Pago: Al usar la(s) Tarjeta(s), el número de cuenta o un dispositivo para tener acceso a su Cuenta,
para hacer un pago a la Cuenta o firmar una solicitud para cualquier Tarjeta que le enviemos, usted representa que tiene mayoría de
edad en el estado donde reside y acepta los términos de este Contrato. Usted acepta pagarnos todas las sumas prestadas a su
cuenta, así como los Cargos por Intereses y los cargos según se dispone en este Contrato. Usted acepta indemnizarnos y librarnos de
responsabilidad por daños, pérdidas o gastos ocurridos como resultado del cumplimiento nuestro con sus instrucciones.
¿QUIÉNES FORMAN PARTE DE ESTE CONTRATO?
TÉRMINOS USADOS

LO QUE SIGNIFICAN

CÓMO LE AFECTAN

Usted y su/sus

Todas las personas que
solicitaron la Cuenta o que son
responsables de la cuenta por
cualquier otra razón y todos los
Usuarios Autorizados.

Si hay Tarjetahabientes conjuntos, cada uno será
responsable individual y conjuntamente por la cantidad
completa adeudada en la Cuenta. Podemos enviar
comunicaciones a cualquiera de los dos; podemos
divulgar información sobre la Cuenta a cualquiera de los
dos; y podemos aceptar instrucciones de cualquiera de
los dos (aunque estén en desacuerdo).

Nosotros, nos,
nuestro/nuestros y Banco
Popular

Banco Popular de Puerto Rico,
sus agentes, representantes
autorizados, sucesores y
cesionarios.

Nosotros somos el acreedor de su Cuenta y los
emisores de su Tarjeta.

Usuario Autorizado

Cualquier otra persona a quien
usted le permita usar la
Cuenta.

Un Usuario Autorizado es la persona a la que usted
solicitó que le emitiéramos una Tarjeta que da acceso a
su Cuenta o cualquier persona a la que usted le da su
Tarjeta o su Número de Tarjeta. Usted es responsable
por cualquier cargo a su Cuenta hecho por un Usuario
Autorizado aunque le haya dicho a esa persona que no
hiciera un cargo en específico. Si desea revocar a un
Usuario Autorizado, deberá notificarnos comunicándose
con Servicio al Cliente. Usted es responsable de
recuperar y destruir cualquier Tarjeta, cheque u otro
dispositivo con el que un Usuario Autorizado pueda
acceder a su Cuenta.

¿CÓMO USA USTED SU CUENTA?
Usted puede usar la Cuenta solamente con propósitos personales, familiares o del hogar. Usted no puede usar la Cuenta con
propósitos ilegales ni para juegos de azar por Internet (ni siquiera legalmente). Sin embargo, siempre será responsable de cualquier
transacción que realice aunque esté en violación de la ley o de este Contrato. Deberá tomar medidas razonables para evitar el uso no
autorizado de su Cuenta. Nosotros podemos convertir su cuenta en cualquiera de nuestras otras cuentas rotativas para la que usted
reúna los criterios de crédito.
TÉRMINOS USADOS

LO QUE SIGNIFICAN

CÓMO LE AFECTAN

Transacciones o Tipos de
Transacciones

Los tipos de transacciones son:
Compras, Adelantos de
Efectivo, Transferencias de
Balance y Plan a Plazos, según
se describe a continuación.

Nosotros no garantizamos que su tarjeta será aceptada
cuando intenta usarla. Usted puede realizar
transacciones usando su Tarjeta, Número de Cuenta u
otro dispositivo de crédito atado a su Cuenta (incluido
un dispositivo móvil, sujeto a los términos y condiciones
de ese servicio). Cada tipo de transacción tendrá su
propio balance y puede tener un Cargo por Intereses
separado.

Compras

Cuando usa la Tarjeta para
comprar bienes y servicios de
comerciantes que aceptan la
Tarjeta.

El comercio recibirá nuestra autorización o denegación
para hacer cargos a la Cuenta de acuerdo a los
términos del Contrato. Podemos rechazar cualquier
solicitud de autorización de transacción de Compra
hecha por un comerciante a nuestra entera discreción
por seguridad u otras razones, aunque haya suficiente

crédito disponible. No somos responsables de las
pérdidas asociadas con la denegación de una
transacción.
Transferencias de Balance y
Cargos

Cuando usted transfiere el
balance de otra Tarjeta de
Crédito.

Permitimos Transferencias de Balance de la mayoría de
las cuentas emitidas por otros bancos, pero no de otras
cuentas o préstamos con nosotros o con cualquiera de
nuestras afiliadas. Cobraremos un cargo por
Transferencia de Balance basado en la cantidad de
cada Transferencia de Balance, según se establece en
las Divulgaciones de Apertura de la Cuenta.

Adelantos de Efectivo y
Cargos

Cuando usted obtiene efectivo
o un equivalente con su
Tarjeta.

Las siguientes transacciones se tratarán como
Adelantos de Efectivo: todos los adelantos para obtener
efectivo “en el mostrador”, a través de un cajero
automático y otras transacciones equivalentes a
efectivo, como comprar divisas extranjeras, un giro,
cheques de viajero, fichas de apuesta en casinos o
billetes de lotería. Cobraremos un cargo por adelanto
de efectivo basado en la cantidad de cada Adelanto de
Efectivo, según se establece en las Divulgaciones de
Apertura de la Cuenta.

Cheques de Conveniencia y
Cargos

Los cheques provistos por
nosotros para que tenga
acceso a la Cuenta.

La cantidad que escribe en un Cheque de Conveniencia
se añadirá a su balance de Compras (pero no hay
periodo de gracia para evitar los Cargos por Intereses).
Nos reservamos el derecho de no pagar un Cheque de
Conveniencia por cualquier razón. Usted no puede usar
un Cheque de Conveniencia para hacer un pago a la
cuenta ni a ninguna otra cuenta con nosotros.
Cobraremos un Cargo por Cheque de Conveniencia
basado en la Cantidad de cada Cheque de
Conveniencia, según se establece en las Divulgaciones
de Apertura de la Cuenta.

Transacciones Recurrentes

Cuando usted autoriza a un
tercero a facturar cargos de
forma recurrente a su Cuenta.

Limite de Crédito

La cantidad máxima que puede
adeudar en su Cuenta en
cualquier momento, tomando
en consideración su capacidad
crediticia y/o su historial de
pago.

No somos responsables de las transacciones
recurrentes a favor de terceros programadas si su
Cuenta se cierra, se suspende, cambia el número de
Cuenta o fecha de expiración. Usted deberá
comunicarse con el tercero para notificarle el cambio
relacionado a su cuenta.
El Límite de Crédito se basa en su capacidad crediticia
y/o su historial de pago. En ese caso le informaremos el
total del Límite de Crédito en su Cuenta cuando le
enviemos su Tarjeta por primera vez y, en lo sucesivo, en
cada estado de cuenta mensual. Podemos establecer un
límite menor para Adelantos de Efectivo. Si en el estado
de cuenta no se indica un límite separado para Adelantos
de Efectivo, entonces la cantidad disponible de su Límite
de Crédito para Adelantos de Efectivo es su Límite de
Crédito total. Su Límite de Crédito y el límite para
Adelantos de Efectivo pueden cambiar de vez en cuando,
tomando en consideración su capacidad crediticia y/o su
historial de pago. Podemos cancelar, cambiar o rescindir
su disponibilidad de crédito en cualquier momento. Le
notificaremos de tales cambios en su estado de cuenta o
enviándole un aviso por separado, lo que puede ocurrir
después de que ocurra el cambio. A nuestra entera
discreción, podemos aprobar una Transacción que cause
que el balance de su Cuenta sobrepase el Límite de
Crédito, en cuyo caso usted tiene que pagar dicho
exceso de inmediato como parte de su Pago Mínimo,
pero no consideraremos dicha Transacción como una
solicitud de aumento de su Límite de Crédito ni
renunciamos a ninguno de nuestros derechos al
hacerlo.

Promociones u Ofertas
Introductorias

Ofertas especiales
relacionadas con su Cuenta.

En las Divulgaciones de Apertura de la Cuenta se
describen las Tasas de Porcentaje Anual (APR)
Introductorias y los cargos especiales. Cualquier oferta
especial está sujeta a los términos de este contrato, a
menos que se especifique otra cosa.

Recompensas

Programa de lealtad vinculado
al uso de su tarjeta de crédito.

Se proveerá información y los términos de su
Recompensas por separando, si aplica.

Transacciones en el
Extranjero, Cargos y Tasa de
Intercambio

Las transacciones que tienen
lugar fuera de los Estados
Unidos. Se le facturarán a
usted en Dólares de los
Estados Unidos.

La asociación de tarjetas correspondiente (Visa,
MasterCard o American Express) convertirá todas las
transacciones realizadas en moneda extranjera a
dólares de los Estados Unidos utilizando la tasa
establecida por mandato gubernamental o la tasa al por
mayor vigente a la fecha de procesamiento (que puede
ser diferente a la tasa vigente en la fecha de la
transacción). La tasa usada puede ser diferente a la
tasa que la asociación de tarjetas en efecto reciba. Se
aplicará una comisión en Dólares de los Estados
Unidos sobre el monto de la transacción. Véase en las
Divulgaciones de apertura de cuenta en la sección de
cargos la comisión aplicable a la cuenta.

Servicio de “Mobile Wallets”

Servicio de pago provisto por
un tercero/ dispositivo móvil
que le permite realizar compras
o pagos con su tarjeta de
crédito mediante un dispositivo
móvil habilitado con un “Mobile
Wallet”.

Le permite añadir su tarjeta de crédito a una aplicación
usando su dispositivo móvil. Su número de tarjeta de
crédito es remplazado por una clave digital o “token”.
Una vez instalado, usted puede usar su dispositivo
móvil para realizar compras o pagos solamente donde
se acepte el “Mobile Wallet”.

¿QUÉ TIENE QUE PAGAR Y CUÁNDO?
Le enviaremos un estado de cuenta todos los meses a la dirección en archivo mientras haya transacciones o un balance adeudado
durante el ciclo de facturación. Este mostrará el Pago Mínimo y su Fecha de Vencimiento, además de las instrucciones para hacer el
pago.
TÉRMINOS USADOS

LO QUE SIGNIFICAN

CÓMO LE AFECTAN

Instrucciones de Pago

Las instrucciones en el estado
de cuenta para realizar pagos a
su Cuenta.

Usted deberá seguir las instrucciones de pago que
aparecen en el dorso de su Estado de Cuenta Mensual.
Para realizar pagos utilizando un cheque, la cuenta
donde se debitarán los fondos debe ser de una
institución financiera de los Estados Unidos en dólares de
Estados Unidos y a nombre de Banco Popular de
Puerto Rico. Dicho pago deberá ser enviado a la
dirección especial que aparece en el estado acompañado
del talonario de pago correspondiente. Usted nos autoriza
a usar información de su cheque para realizar
una única transferencia electrónica de fondos de la
cuenta o para tramitar el pago como una transacción
de cheque. Los pagos por correo se acreditarán el mismo
día si son recibidos en o antes de las 5:00 p.m.
(AST) de lunes a viernes (excepto días feriados). Pagos
electrónicos o por teléfono se acreditarán el mismo
día si son recibidos en o antes de las 5:00 p.m. (EST) de
lunes a viernes (excepto días feriados). Podemos
aplicar una condición de retención de disponibilidad de su
línea de crédito a su Cuenta por la cantidad del
pago hasta que su cheque u otro instrumento de pago
haya sido cobrado. La disponibilidad de su línea
de crédito por la cantidad del pago a su Cuenta se
retrasará como resultado de esta condición. El pago
se aplicará a su Cuenta en la fecha en que lo recibamos
conforme con esta sección. Si usted utiliza otro
método de pago que no cumple con los requisitos
anteriormente divulgados, la aplicación del pago podrá
tardar hasta cinco días durante los cuales no se
acumularán intereses.
Podemos aceptar y procesar pagos tardíos, parciales y
pagos identificados como “pago en su totalidad” sin
perder nuestros derechos a tenor de este contrato.
Si se revoca un pago debido a fondos insuficientes o por
cheque devuelto, el banco aplicará a su cuenta una
condición de retención de disponibilidad de su línea de
crédito y usted puede perder cualquier oferta especial de
APR. El resultado de esta retención es que la
disponibilidad de la línea de crédito que resulte de un

pago a su cuenta se atrasará 7 días naturales después
de tramitado el pago. La condición de retención se
cancelará después de seis (6) ciclos de facturación en los
que no ocurra una revocación de pago.
Su Estado de Cuenta Mensual identificará la Fecha de
Vencimiento de Pago. Por lo general, será el mismo día
de cada mes, por lo menos, 25 días después del cierre
del ciclo de facturación que aparece en el estado de
cuenta.
Usted acepta pagar por lo menos el Pago Mínimo a su
vencimiento. Sobre balances entre $0.01 hasta $26.99, el
pago mínimo será el balance pendiente. Sobre balances
de $27 o más, el pago mensual mínimo será el 2% del
balance pendiente o el Cargo por Intereses + $10 o una
cantidad fija de $27, lo que sea mayor. El Pago Mínimo
puede incluir cualquier cantidad vencida, el total de
cualquier cantidad en exceso de su límite de crédito y
cualquier Cargo por Pago Tardío.

Fecha de Vencimiento de
Pago

La fecha para la cual debemos
recibir el Pago Mínimo para
que llegue a tiempo.

Pago Mínimo

La cantidad mínima que usted
debe pagar en cada ciclo de
facturación, según se muestra
en el Estado de Cuenta.

“Skip a Payment”

Podemos ofrecerle, a
discreción nuestra, omitir un
pago mensual mínimo durante
ciertos ciclos de facturación.

Esta oferta solo está disponible para Tarjetas no
Garantizadas. Si usted recibe esta oferta, su estado de
cuenta reflejará un pago mensual mínimo requerido de
$0, y puede que no tenga que realizar el pago mensual
mínimo para ese ciclo de facturación. Si opta por omitir
un pago, continuará acumulando Cargos por Intereses
sobre el balance pendiente de su cuenta durante ese
periodo. Sin embargo, usted siempre puede realizar un
pago por cualquier cantidad. Al final del periodo de
omisión de pago, los términos del Contrato relacionados
con el Pago Mínimo requerido se reanudarán
automáticamente. Si tiene un Plan de Pagos a Plazos,
usted tendrá que realizar el(los) pago(s) mensual(es)
correspondiente(s), incluso si acepta la oferta de “Skip a
Payment”.

El periodo de tiempo durante el
cual no se le cobran intereses
sobre las Compras si usted
paga el balance total adeudado
l a tiempo.

No cobraremos intereses desde la fecha que compre
bienes o servicios, si usted paga el balance total
adeudado de su cuenta en o antes de la Fecha de
Vencimiento. Si no paga el balance total adeudado pero
se encuentra en período de gracia, no pagará intereses
sobre el monto pagado en ese ciclo de facturación. En
los ciclos posteriores usted no tendrá período de gracia
hasta que pague el balance total adeudado en su
cuenta durante dos ciclos de facturación consecutivos.
Los balances relacionados a ciertas ofertas no se
toman en cuenta para determinar si califica para el
período de gracia, para las cuales debe referirse a los
términos y condiciones de la oferta.

No hay periodo de gracia en
Transferencias de Balance,
Cheques de Conveniencia,
Plan a Plazos y Adelantos de
Efectivo.

Las Transacciones sin Periodo de Gracia comienzan a
acumular intereses en la fecha en que se postean en la
cuenta y siguen acumulando Cargos por Intereses
hasta que se paguen en su totalidad.

Aplicación de Pagos

La forma en que aplicamos su
pago contra el balance de su
Cuenta.

Balances en Crédito

Cuando un sobrepago
inesperado es realizado en su
Cuenta.

Si usted realiza el pago mensual mínimo requerido en el
estado mensual, lo aplicaremos en el siguiente orden: los
Cargos por Intereses y la cantidad restante se aplicará
primero contra la deuda resultante de las compras y los
adelantos de efectivo con los APR más bajos y luego a la
deuda con los APR más altos en orden ascendente. Por
consiguiente, la deuda con los APR más altos no se
reducirá hasta que se pague en su totalidad la deuda con
los APR más bajos. Si usted paga una cantidad en
exceso del pago mínimo requerido, el exceso se aplicará
primero a los balances con los APR más altos.
Podremos rechazar y devolver cualquier pago que
ocasiona un balance en crédito en su Cuenta. De
nosotros permitir cualquier balance en crédito en su
Cuenta cuando un sobrepago inesperado es realizado,
usted puede solicitar un reembolso de los balances en

Pago de Intereses
Periodo de Gracia en
Compras

Sin Periodo de Gracia

crédito en cualquier momento. No pagaremos intereses
a balances en crédito en su Cuenta. Si no solicita el
reembolso, aplicaremos los balances en crédito a las
transacciones nuevas, a menos que esté prohibido por
ley. Si no realiza transacciones nuevas en 180 días, le
enviaremos el rembolso.

¿EN QUÉ CONSISTEN LOS CARGOS Y CÓMO SE CALCULAN?
TÉRMINOS USADOS

LO QUE SIGNIFICAN

CÓMO LOS CALCULAMOS

Balance Diario

El balance de cada tipo de
transacción y APR de cada día.

Calculamos el Balance Diario usando el balance inicial de
cada tipo de transacción y APR cada día, añadiendo
cualquier transacción nueva y restando cualquier pago
y/o crédito y otros ajustes. Tratamos cualquier balance
diario que sea un balance en crédito como un balance en
cero.

Balance Diario Promedio

El promedio del balance de cada
día durante el ciclo de
facturación.

Tasa de Porcentaje Anual
(APR)

La Tasa de Interés de sus
transacciones, según se
establece en las Divulgaciones
de Apertura de la Cuenta.

Tasa Periódica Diaria (DPR)

La tasa diaria de interés que
calculamos.

Calculamos el Balance Promedio Diario sumando todos
los Balances Diarios de cada día del periodo de
facturación y lo dividimos entre el número de días del
periodo de facturación.
Los APR son variables y pueden aumentar o disminuir
con la Tasa Preferencial de los Estados Unidos (“Prime
Rate”). El APR se determinará sumando el “Prime Rate”,
según publicado por el “The Wall Street Journal”, vigente
al momento de la aprobación de su solicitud a un margen.
El margen aplicable a sus tipos de transacción dependerá
del historial de crédito al momento de la aprobación de su
solicitud. Para cada ciclo de facturación, el Cargo por
Intereses y el APR se determinarán utilizando el “Prime
Rate” vigente tres días laborables previo al cierre de su
estado de cuenta. En la eventualidad de que “The Wall
Street Journal” no se publicara durante algún periodo,
seleccionaremos una tasa similar. Nosotros podemos
cambiar los márgenes de vez en cuando para
transacciones nuevas previa notificación.
Calculamos los intereses usando el método de tasa
periódica diaria. La tasa periódica diaria para un balance
dado es igual al APR de ese balance dividido entre 365 y
redondeado hacia arriba según permitido por ley.

Cargos por Intereses

La cantidad que le cobramos por
su crédito en cada tipo de
transacción.

Añadimos los Cargos por Intereses a la Cuenta sumando
los Cargos por Intereses al Balance de cada tipo de
transacción y al APR al cual aplica. (Por ejemplo,
sumamos los Cargos por Intereses en Compras al
Balance de Compras.) Calculamos el Cargo por Interés
aplicando el DPR de cada tipo de transacción y el APR al
Balance Promedio Diario de ese tipo de transacción.
Multiplicamos el resultado por el número de días en el
ciclo de facturación. Eso nos da el total de los Cargos por
Intereses de ese tipo de transacción para ese periodo de
facturación.
Los Cargos por Adelantos de Efectivo, Transferencias de
Balance y Cheques de Conveniencia se suman a balance
correspondiente, todos los demás Cargos se añaden al
balance de Compras.

¿QUÉ SUCEDE SI PAGA TARDE?
Si paga la cantidad del Pago Mínimo a la Fecha de Vencimiento de Pago, no pagará penalidades. Usted debe pagar a tiempo.
PENALIDAD

LO QUE SIGNIFICA

LO QUE LE COBRAREMOS

Cargo por Pago Tardío

El cargo que cobraremos cada
vez que pague tarde.

Si el pago está atrasado, podemos cobrarle un Cargo
por Pago Tardío por la cantidad establecida en las
Divulgaciones de Apertura de la Cuenta. En ningún
caso, el Cargo por Pago Tardío sobrepasará la cantidad
del Pago Mínimo vencido.

APR de Penalidad

Un Cargo por Intereses más
alto por incumplimiento.

Cada vez que no realice el Pago Mínimo por un periodo
de 60 días consecutivos después de la Fecha de
Vencimiento de Pago, aplicaremos el APR de Penalidad

a todos los balances existentes y a las transacciones
nuevas.
El APR de Penalidad seguirá en vigor hasta que la
Cuenta esté al día y hayamos recibido 6 Pagos Mínimos
requeridos consecutivos en o antes de la Fecha de
Vencimiento de Pago.
Cargo por Cheque Devuelto

El cargo que se cobra cuando
Podemos cobrarle un cargo cuando el pago por cheque
el pago por cheque es devuelto es devuelto por la cantidad establecida en las
por fondos insuficientes.
Divulgaciones de apertura de Cuenta.

¿QUÉ OTROS CARGOS PUEDEN APLICAR?
Puede haber ocasiones en que las circunstancias tengan como resultado el cobro de una comisión o alguna otra acción sobre la
Cuenta. En las Divulgaciones de apertura de Cuenta se enumera el monto de estas comisiones. Todas esas comisiones se añadirán
al balance de Compras, a menos que se indique otra cosa. Es posible que apliquen comisiones adicionales por concepto de servicios
especiales que usted solicite, exceptuando según sean inexigibles o inaplicables en Maryland. Se le notificará el monto de dicha
comisión al momento de dicha solicitud.
COMISIÓN

LO QUE SIGNIFICA

LO QUE LE COBRAREMOS

Cuota Anual

Un cargo que podemos
cobrarle anualmente por la
cuenta.

Si aplica, el cargo anual se reflejará en el primer estado
de cuenta después de emitida la primera Tarjeta y,
subsiguientemente, en cada aniversario de apertura de la
cuenta.

Cargo por Reimpresión del
Estado de cuenta

Usted puede solicitar una copia Podemos añadir un Cargo de $2.50 por Reimpresión de
de su estado de cuenta.
cada Estado de Cuenta a su balance de compras si
usted solicita una copia de su estado mensual.

Cargo por Orden de Tarjeta
Urgente

Usted puede solicitar que se le
envíe una Tarjeta nueva o de
reemplazo de forma expedita.

Añadiremos un cargo de $25 al balance de Compras si
solicita que se le envíe una Tarjeta nueva o de
reemplazo de forma expedita.

¿COMO PODEMOS HACER CAMBIOS?
Es posible que tengamos una serie de razones por las cuales sea necesario que realicemos cambios a este Contrato y a los términos
de su Cuenta de tiempo en tiempo. Podemos efectuar estos cambios según lo permita la ley. Recibirá un aviso por escrito en el que se
explica cómo aplican los cambios.
TIPO DE CAMBIO

QUÉ PUEDE PROVOCAR EL
CAMBIO

NOTIFICACIÓN PREVIA

APR de Penalidad aplica a los
balances existentes

Si el pago esta tarde por 60 días
consecutivos.

45 días

Aumentos de APR sobre
transacciones nuevas

Durante el primer año, cuando
termina una APR Introductorio o
la Tasa Preferencial cambia.
Después de eso, por cualquier
razón.

No hay aviso cuando terminan los APR Introductorios.
Para otros aumentos, 45 días y 60 días para
residentes de Iowa.

Aumento o disminución de las
líneas de crédito

Cualquier razón.

Ninguna

Algunos cargos y otros
términos

Cualquier razón.

Hasta 45 días para ciertos cambios en Cargos y Pago
Mínimo y 60 días para residentes de Iowa.

¿QUÉ SUCEDE SI…?
LO QUE USTED DEBE
HACER

CÓMO LE AFECTA

Se pierde o le roban la Tarjeta
o si la Cuenta se ve
comprometida por fraude

Comuníquese de inmediato
con nosotros y deje de utilizar
la Cuenta. Comuníquese con
nosotros a la dirección o al
número de teléfono que
aparece en el estado de
cuenta o en el dorso de la
Tarjeta.

Usted no será responsable del uso no autorizado que
ocurra después de que nos lo notifique. Sin embargo,
usted puede ser responsable del uso no autorizado que
ocurra antes de que nos lo notifique. De cualquier modo,
su responsabilidad no excederá los $50.

La Cuenta es cerrada o
suspendida

Usted deberá pagar las
cantidades adeudadas de

Usted sigue siendo responsable del balance.

conformidad con este Contrato.
Si ha cambiado su nombre,
dirección, número de teléfono,
dirección de correo electrónico
u otra información.

Notifíquenos cualquier cambio.

También podemos pedirle que nos provea información
financiera actualizada suya y usted acepta hacerlo.

SERVICIO DE “MOBILE WALLETS”
LO QUE
SIGNFICA

LO QUE USTED ACEPTA

Una forma de
realizar compras
o pagos usando
un dispositivo
móvil

Usted puede optar por añadir su número de tarjeta de crédito a un Servicio de “Mobile Wallet”. Si lo hace,
usted reconoce que no somos los proveedores del “Wallet”, que no controlamos el dispositivo y que no
somos responsables de falla alguna o incapacidad de realizar una transacción utilizando el “Wallet”.
Nosotros solamente somos responsables de proveer la información de forma segura al proveedor del
“Wallet” para permitir el uso de su tarjeta de crédito en el “Wallet”. Nos reservamos el derecho de definir la
elegibilidad del producto. Usted acepta que tal uso de su cuenta estará sujeto a todos los términos y
condiciones incluidos en este Contrato. Las APR de Compras serán aplicables a las compras realizadas
mediante el Servicio de “Mobile Wallet”. Usted reconoce que pueden aplicar ciertas tasas por mensajería
y datos por parte de sus operadores y/o proveedores de servicio inalámbrico que pueden tener un
impacto en su uso del “Wallet”. Por ejemplo, su operador o proveedor de servicio móvil puede imponer
cargos por el uso de datos o texto, por su uso de, o interacción con, el “Wallet”, incluido descargar la
programación, recibir o enviar mensajes de texto u otro uso de su dispositivo móvil cuando use la
programación u otros productos o servicios provistos por el “Wallet”. Usted acepta expresamente que es
responsable de todos esos cargos, limitaciones y restricciones y que nosotros podemos comunicarnos
con usted a través de su dispositivo móvil para cualquier propósito relacionado con su cuenta con
nosotros, incluido el servicio de la cuenta y para propósitos de cobro. Nosotros no controlamos la
privacidad ni la seguridad de la información suya que pueda estar en poder del proveedor del “Wallet” y
eso está regido por la política de privacidad del proveedor del “Wallet”. Usted acepta no dejar desatendido
su Dispositivo Móvil mientras esté conectado con el “Wallet”y desconectarse de inmediato toda vez que
complete cada acceso que realice. Usted acepta no proveerle su contraseña ni ninguna otra información
de acceso a otra persona. Si piensa que alguien puede obtener acceso no autorizado a su Dispositivo
Móvil, usted acepta cancelar de inmediato el acceso al “Wallet” asociado con el Dispositivo Móvil. Usted
acepta proveernos aviso inmediato en caso de que sospeche fraude o algún acceso no autorizado a
alguna de sus cuentas. Usted acepta tomar todas las precauciones para garantizar la seguridad y la
integridad de la cuenta y de las transacciones cuando use el “Wallet”. Salvo que la ley requiera otra cosa,
nosotros podemos, a nuestra entera discreción, cambiar estos términos y modificar o cancelar su
elegibilidad para usar la tarjeta a través de un servicio del “Wallet” en cualquier momento, sin aviso. Usted
no puede cambiar estos términos pero puede darlos por terminados eliminando su tarjeta del servicio del
“Wallet”. Nosotros nos reservamos el derecho de rechazar cualquier transacción por cualquier razón.
Usted entiende y acepta expresamente que su uso de un servicio de “Mobile Wallet””es a su entero
riesgo. Cualquier material que descargue o que, de algún modo, obtenga mediante el uso del “Wallet” lo
obtiene a su entera discreción y riesgo, y nosotros no somos responsables de daño alguno a su
dispositivo móvil ni por pérdida de datos como resultado de la descarga de dicho material, ya sea debida
a un virus de computadora o de otra cosa. No hacemos representación ni damos garantía de cuán
completa, precisa, confiable o actualizada sea la información o los datos que usted obtenga mediante el
uso de un servicio de billetera.

¿CUALES SON NUESTROS DERECHOS SI USTED INCUMPLE O TENEMOS UNA DISPUTA?
Su incumplimiento

Arbitraje de Disputas

Una Cuenta estará en incumplimiento si usted:
1) no realiza el Pago Mínimo a la fecha de vencimiento; 2) viola cualquier otra disposición de
este Contrato; 3) estimamos que no está dispuesto o no es capaz de pagar sus deudas a
tiempo; 4) se acoge a quiebra; o 5) se incapacita o muere.
Si su Cuenta está en incumplimiento, podemos cerrarla o terminar o suspender sus
privilegios de crédito sin aviso y requerir de inmediato el pago total del balance pendiente.
También podemos comenzar gestiones de cobro. En la medida en que lo permita la ley, si
usted está en incumplimiento porque no nos ha pagado, le exigiremos que nos pague los
costos por el cobro, honorarios de abogado, costas legales y todos los demás gastos por
ejercer nuestros derechos a tenor de este contrato.
Este Contrato contiene una Disposición de Arbitraje a continuación. En el plazo de los
90 días posteriores a la fecha de apertura de su Cuenta, usted puede optar por
rechazar la Disposición de Arbitraje, proporcionando un aviso por escrito de su
intención de hacerlo a la dirección: División Legal (745), Banco Popular de Puerto
Rico, PO Box 362708, San Juan, Puerto Rico 00936-2708. A menos que usted someta
su rechazo, o en la medida en que lo permita la ley aplicable, la Disposición de
Arbitraje tendrá un impacto sustancial sobre la manera en que se resuelva cualquier
reclamación legal que tengamos mutuamente, ya sea que usted o nosotros optemos

por el arbitraje. Por ejemplo, las disputas sujetas a arbitraje son resueltas por un
árbitro neutral y no por un juez ni un jurado. Además, si usted o nosotros optamos
por el arbitraje, ni usted ni nosotros tendremos el derecho a participar en una acción
de clase, ya sea en un tribunal o en un arbitraje. Esta Disposición de Arbitraje no
aplica a o no se invocará contra, los prestatarios cubiertos bajo la protección del
“Military Lending Act.”
DISPOSICIÓN DE ARBITRAJE
RENUNCIAS IMPORTANTES: SI USTED O NOSOTROS OPTAMOS POR RECURRIR AL ARBITRAJE DE UNA
RECLAMACIÓN, TANTO USTED COMO NOSOTROS RENUNCIAMOS AL DERECHO DE: (1) PERMITIR QUE UN
TRIBUNAL O UN JURADO RESUELVA LA RECLAMACIÓN; (2) PARTICIPAR EN UNA ACCION DE CLASE EN UN
TRIBUNAL O EN ARBITRAJE, YA SEA COMO UN REPRESENTANTE DE CLASE, MIEMBRO DE LA CLASE O DE
CUALQUIER OTRA FORMA, O ACTUANDO COMO UN REPRESENTANTE (“PRIVATE ATTORNEY GENERAL”) EN EL
TRIBUNAL O EN ARBITRAJE (LA “RENUNCIA A ACCION DE CLASE”); (3) UNIR O CONSOLIDAR RECLAMACION(ES)
CON OTRAS RECLAMACIONES QUE ENVUELVAN A OTRAS PERSONAS; O (4) OBTENER INFORMACIÓN, SALVO
COMO AQUÍ SE DISPONE. OTROS DERECHOS ESTÁN MÁS LIMITADOS EN ARBITRAJE QUE EN EL TRIBUNAL O NO
ESTÁN DISPONIBLES EN ARBITRAJE.
DEFINICIONES – En esta Disposición de Arbitraje, aplicarán las siguientes definiciones:
“Administrador” significa, según aplique, la American Arbitration Association (la “AAA”) o J.A.M.S./Endispute (“JAMS”)
o, si la AAA y JAMS no pueden o no están dispuestos a servir, un administrador de arbitraje acordado por las partes o
designado por un tribunal, siempre y cuando el Administrador no tenga instituida una política formal o informal incompatible
con, y que aparente hacer caso omiso de, los términos de esta Disposición de Arbitraje. Usted puede optar por seleccionar el
Administrador cuando dé aviso por escrito de optar por el arbitraje de la Reclamación o en el plazo de los 20 días posteriores
a que le entreguemos dicho aviso por escrito. De otro modo, nosotros seleccionaremos al Administrador.
“Reclamación” significa cualquier reclamación, disputa o controversia legal entre usted y nosotros que surja de o se
relacione de algún modo con este Contrato o la cuenta de tarjeta de crédito, incluido: (i) los costos o cargos que nosotros u
otras partes impongamos en relación con este Contrato o la cuenta de tarjeta de crédito o las demás disposiciones de este
Contrato; (ii) el interés, si alguno, pagado en la cuenta de tarjeta de crédito; (iii) cualquier solicitud, divulgación u otro
documento relacionado, de algún modo, con este contrato; (iv) cualquier servicio o producto ofrecido o puesto a disposición
por nosotros o por medio de nosotros en conexión con este contrato, incluidos cualquier costo, cargo, términos o
divulgaciones asociadas; (v) cualquier documento, instrumento, material publicitario o promocional que contenga información
sobre este Contrato o cuenta de tarjeta de crédito, o cualquier otro servicio o producto; y (vi) las relaciones resultantes de
cualquiera de los anteriores. Esto incluye, pero no se limita a, disputas relacionadas con alegado fraude o falsa
representación, incumplimiento de contrato, negligencia o violación de estatuto, reglamentación o derecho consuetudinario; y
disputas relacionadas con solicitudes de interdicto u otro remedio en equidad. Sin embargo, “Reclamación” no incluye: (a)
pleito individual alguno incoado por usted en un tribunal que dilucida casos de menor cuantía (small claims court) o un tribunal
equivalente en su estado, salvo que dicho pleito sea trasladado, removido o apelado en un tribunal diferente; (b) cualquier
disputa o controversia sobre la validez, aplicabilidad, cobertura o alcance de esta Disposición de Arbitraje o cualquier parte de
la misma (incluyendo sin limitación, la renuncia a una acción de clase establecida a continuación, subpartes (A) y (B) de la
parte titulado “Sobrevivencia, Primacía y Separabilidad” y/o en esta oración); toda estas disputas o controversias deben ser
resuelta por un tribunal y no un árbitro (pero cualquier impugnación sobre este Contrato en su conjunto es para ser resuelta
por un árbitro y no un tribunal; o (c) cualquier ejercicio que hagamos de nuestro derecho de compensación por las cantidades
que nos adeude contra las cantidades que tenga depositadas con nosotros o cualquier proceso judicial incoado por usted para
impedir el ejercicio de dicho derecho.
COMENZAR EL ARBITRAJE – Para iniciar el arbitraje, usted o nosotros debemos dar aviso por escrito de la decisión de optar
por el arbitraje. Este aviso puede darse después de entablada una demanda y puede darse en papeles o mociones en la
demanda, como una moción para obligar el arbitraje. Incluso, aun cuando todas las partes han optado por litigar una
Reclamación en el tribunal, usted o nosotros podemos elegir el arbitraje con respecto a cualquier Reclamación realizada por
una nueva parte o cualquier Reclamación posteriormente presentada por una de las partes o cualquier demanda relacionada
o no (incluyendo una Reclamación presentada de manera individual que posteriormente es modificada a ser una acción de
clase, representante o de múltiples partes). Nada en ese litigio constituirá una renuncia de cualquier derecho bajo esta
Disposición de Arbitraje. Si se comunica la elección de arbitraje, la Reclamación deberá resolverse por arbitraje a tenor de
esta disposición de arbitraje y de las reglas aplicables del Administrador en efecto al momento. El árbitro será seleccionado a
tenor de las reglas del Administrador, salvo que el árbitro debe ser un abogado con, por lo menos, 10 años de experiencia o
un juez retirado, a menos que usted y nosotros acordemos de otro modo.
UBICACIÓN Y COSTAS – Cualquier audiencia de arbitraje a la que usted asista se llevará a cabo en una ubicación
razonablemente conveniente para usted. Tomaremos en consideración (y, por lo general, aceptaremos) cualquier solicitud de
buena fe para asumir los costos del Administrador y el árbitro o los árbitros. Cada una de las partes pagará sus propios
gastos; disponiéndose que, si perdemos, también pagaremos todos los costos del Administrador y el árbitro o los árbitros y
todos los honorarios razonables de sus abogados. En todos los casos, pagaremos todos los cargos y costos (incluidos los
honorarios de abogado) que se nos requiera pagar a tenor de la ley aplicable y/o para que podamos hacer valer esta
Disposición de Arbitraje.
DESCUBRIMIENTO; OBTENCIÓN DE INFORMACIÓN – Cualquiera de las partes puede obtener, previo a la audiencia,
información disponible de la otra parte a tenor de las reglas del Administrador o cualquier información que el árbitro determine
que deba hacerse disponible.
EFECTO DE LA ADJUDICACIÓN DEL ARBITRAJE – Cualquier tribunal con jurisdicción puede pasar juicio sobre la
adjudicación del árbitro. La adjudicación del árbitro será final y firme, salvo: (1) cualquier derecho de apelación a tenor de la
Federal Arbitration Act, 9 U.S.C. §§1 et seq. (la “ley FAA”); y (2) Reclamaciones de más de $50,000. Para las Reclamaciones
de más de $50,000, cualquiera de las partes puede apelar la adjudicación ante un panel de tres árbitros designado por el
Administrador, que reconsiderará, de novo, cualquier aspecto de la adjudicación inicial apelada. La decisión del panel será
final y firme, salvo cualquier apelación a tenor de la ley FAA.

LEY RECTORA – Esta Disposición de Arbitraje se establece de conformidad con una transacción de comercio interestatal y
se regirá por la ley FAA, y no por ley estatal alguna relacionada con el arbitraje, disponiéndose que la ley de Nueva York
aplicará en la medida en que cualquier ley estatal o territorial sea pertinente en la determinación de la posibilidad de hacer
valer esta Disposición de Arbitraje a tenor de la Sección 2 de la ley FAA. El árbitro se regirá por la ley sustantiva aplicable en
la medida en que ésta sea compatible con la ley FAA, los estatutos aplicables de limitación y las reglas aplicables de
privilegio, y tendrá autoridad para adjudicar todos los remedios permitidos que aplicarían bajo ley aplicable a una acción
individual presentada ante el tribunal, incluyendo, pero sin limitarse a, daños compensatorios, estatutarios y punitivos (sujetos
a los límites constitucionales que aplicarían en un tribunal), remedios declaratorios, interdictales y otros remedios en equidad
(pero solo a favor de la parte individual que busca remedio y solo en la medida necesaria para proporcionar el remedio
justificado por la Reclamación individual de esa parte), honorarios de abogado y costas legales. Tras la solicitud puntual de
cualquiera de las partes, el árbitro redactará una explicación breve sobre la base de su adjudicación. El árbitro seguirá las
reglas de procedimiento y evidencia de conformidad con la ley FAA, esta Disposición de Arbitraje y las reglas del
Administrador.
SOBREVIVENCIA, PRIMACÍA, SEPARABILIDAD– Esta Disposición de Arbitraje sobrevivirá el cierre de su cuenta de tarjeta
de crédito; nuestra venta o transferencia de nuestros derechos a tenor de este contrato; cualquier procedimiento legal o
derecho de compensación para el recobro de una deuda contraída por usted; o cualquier quiebra o insolvencia. En caso de
conflicto o inconsistencia entre esta Disposición de Arbitraje y las reglas del Administrador o este Contrato, prevalecerá y
regirá esta Disposición de Arbitraje. Si alguna parte de esta disposición de arbitraje no puede hacerse valer en un
procedimiento entre usted y nosotros, el resto de la Disposición de Arbitraje continuará en vigor, excepto que: (A) la
Disposición de Arbitraje entera (excepto esta oración) deberá ser nula si la renuncia a la acción de clase se considera
inválida respecto a cualquier Reclamación de clase o representación en un procedimiento entre usted y nosotros, sujeto a
cualquier derecho de apelar dicha decisión, y (B) si se presenta una Reclamación en busca de un remedio extraordinario de
interdicto público y un tribunal determina que las restricciones en la renuncia de acción de clase u otras partes de esta
Disposición de Arbitraje que prohíben al árbitro otorgar remedios en beneficio de terceros no son exigibles con respecto a tal
Reclamación (y esa determinación se convierte final luego de que se hayan agotado todos los derechos de apelar la decisión),
la Reclamación un remedio extraordinario de interdicto público será determinado en el tribunal y cualquier Reclamación
individual solicitando compensación monetaria será arbitrada. En tal caso, las partes solicitarán que el tribunal suspenda la
Reclamación para un remedio extraordinario de interdicto público hasta tanto la indemnización arbitral correspondiente al
remedio extraordinario de interdicto haya sido presentada en el tribunal. En ningún caso, una Reclamación solicitando un
alivio para toda la clase o para un remedio extraordinario de interdicto será mediante arbitraje.
INCUMPLIMIENTO DEL CONTRATO DE ARBITRAJE – Si alguna de las partes no se somete a arbitraje después de que se
le exija hacerlo de forma apropiada, esa parte asumirá todas las costas y los gastos, incluidos honorarios razonables de
abogado, incurridos por la otra parte para procurar que se obligue al arbitraje.
Cómo comunicarse con los Administradores de Arbitraje
Si tiene alguna pregunta sobre los administradores de arbitraje mencionados en esta Disposición de Arbitraje o quisiera
obtener una copia de sus Reglas de Arbitraje o Lista de Costos, puede comunicarse con ellos como se indica a
continuación: American Arbitration Association, 1633 Broadway, 10th Floor, New York, New York 10019, www.adr.org,
(800) 778-7879. Reglas Comerciales o del Consumidor, J.A.M.S./Endispute, 222 South Riverside Plaza, Suite 1850,
Chicago, IL 60606; www.jamsadr.com (800) 352-5267, Reglas y Procedimientos de Arbitraje de Servicios Financieros.
¿QUÉ OTROS TÉRMINOS APLICAN A NUESTRA RELACIÓN?
Cerrar la Cuenta

Puede cerrar la Cuenta en cualquier momento notificándonoslo ya sea por escrito a la
dirección, o por teléfono al número que aparece en el Estado de Cuenta Mensual. No
aceptaremos ningún Cheque de Conveniencia ni autorizaremos ninguna transacción después
de cerrada la Cuenta. Podemos cerrar su Cuenta o terminar sus privilegios de crédito en
cualquier momento, por cualquier razón, de conformidad con la ley aplicable. Si lo hacemos,
no podrá utilizar su Tarjeta ni ningún cheque que hayamos emitido. Usted sigue siendo
responsable de cualquier balance en la cuenta, el cual continuará acumulando Cargos por
Intereses y otros Cargos y permanecerá sujeto a todos los términos de este Contrato.

Privacidad

El Aviso de Privacidad de Popular, Inc. (nuestra compañía matriz) explica cómo recopilamos
y compartimos su información.

Comunicaciones

Podemos enviarle Tarjetas, estados de cuenta y otras comunicaciones a cualquier dirección
postal o dirección de correo electrónico en nuestros archivos. También podemos enviar un
correo electrónico a cualquier dirección donde estimemos que podemos razonablemente
comunicarnos con usted. Al suministrar un número de teléfono celular, de otro dispositivo
inalámbrico o de línea terrestre que fuera convertido luego a inalámbrico, usted consiente
expresamente a recibir información a ese número, incluidas pero sin limitarse a, llamadas de
voz pregrabada o artificial, mensajes de texto y llamadas realizadas por un sistema de
discado telefónico automático del Banco Popular y sus afiliadas, agentes o cesionarios. Si el
dispositivo inalámbrico no está registrado a su nombre, usted manifiesta que es el usuario
primario y que tiene autoridad para proveer este consentimiento. Este consentimiento
expreso aplica a cada uno de dichos números telefónicos que nos provea ahora o en el futuro
y permite tales llamadas independientemente del propósito. Algunos de los propósitos
legales de las llamadas y mensajes incluyen: sospecha de fraude o robo de identidad,
obtener información, transacción o servicio de la cuenta, cobro de la cuenta y proveerle
información sobre productos y servicios. Estas llamadas y mensajes pueden provocar gastos
de acceso de su proveedor de servicio celular.
Notifíquenos de inmediato cualquier cambio en su información de contacto utilizando la
dirección o el número de teléfono que aparece en el estado de cuenta.

Monitorización Telefónica
Información de Crédito

Hacer Valer Nuestros
Derechos

Nosotros o un tercero podemos escuchar y grabar las llamadas telefónicas entre nosotros y
usted.
Podemos obtener y revisar su historial de crédito u otra información sobre usted de cualquier
agencia de información de crédito y otros, incluida la información relacionada con el
procesamiento, establecimiento, servicio y el cobro de la Cuenta. También pudiéramos
obtener un reporte de crédito adicional u otra información sobre usted relacionado a la misma
transacción o extensión de crédito con el propósito de revisar su Cuenta, aumentar el Límite
de Crédito de su Cuenta, con el propósito de realizar gestiones de cobro de su Cuenta, o
cualquier otro propósito legitimo asociado con su Cuenta. Usted puede solicitar que le
indiquemos si se obtuvo su reporte de crédito y de ser así, le informaremos el nombre y
dirección de la agencia de información de crédito utilizada.
Podemos, además, dar información de su cuenta a las agencias de información de crédito y
otros. De usted no cumplir con su obligación crediticia, pudiéramos reportar a las agencias de
crédito información adversa que se reflejará en su historial de crédito. Podemos dar
información a las agencias de información de crédito sobre esta Cuenta a nombre de un
usuario autorizado. Si estima que hemos dado información incorrecta, escríbanos a la
dirección que aparece en el estado de cuenta e investigaremos.
Podemos optar por retrasar el hacer valer cualquiera de nuestros derechos o renunciar a
alguno de ellos a tenor de este Contrato. Podemos optar por retrasar el hacer valer
cualquiera de nuestros derechos o renunciar a alguno de ellos sin que se afecten nuestros
demás derechos. Si renunciamos a algún derecho, no necesariamente estamos renunciando
al mismo derecho en otra circunstancia.

Ley Aplicable

Este Contrato y la Cuenta se regirán por la ley federal y, en la medida en que aplique una ley
estatal o territorial, las leyes del Estado Libre Asociado de Puerto Rico y estas leyes aplicarán
sin importar dónde usted viva o use esta Cuenta.

Enmiendas

Podemos cambiar o terminar todo o cualquier parte de este Contrato, incluidos los APR y los
Cargos, en cualquier momento. Podemos, además, añadir nuevos términos o eliminar
términos. Cualquier cambio se efectuará de conformidad con la ley aplicable y lo
informaremos según lo requiera la ley.

Cesión

Podemos vender, ceder o transferir el Contrato y la Cuenta o cualquier parte de estos sin
informárselo y el comprador, cesionario o beneficiario de una transferencia tendrá los mismos
derechos que tenemos a tenor de este Contrato. Usted no puede vender, ceder ni transferir la
Cuenta.

Separabilidad

Salvo como se dispone específicamente en la sección de arbitraje, si se determina que
alguna disposición de este Contrato es nula y no puede hacerse valer a tenor de la ley, regla
o reglamento, todas las demás disposiciones de este Contrato seguirán siendo válidas y
podrán hacerse valer.

Restricciones de Uso

Banco Popular puede restringir el uso de la Tarjeta en cualquier jurisdicción o país en donde
dicho uso sea contrario a una ley o reglamento de los EE.UU. o se identifique que representa
un alto riesgo de fraude.

Divulgaciones específicas para residentes de cada Estado
Florida: Usted (prestatario) acepta que, si obtenemos una sentencia en su contra, una porción de sus ingresos pudiera ser
sujeta o embargada según establece la ley federal y del estado de Florida.
Kentucky: Usted podrá pagar parte o el total del balance adeudado en cualquier momento.
Maryland: En la medida que no sea aplicable ya sea por ley federal y las leyes de Puerto Rico, este Contrato se rige por el
título 12, subtitulo 9 del Artículo de Ley Comercial de Maryland.
Missouri: Los acuerdos o compromisos verbales con el propósito de prestar dinero, extender crédito o el no ejercer el repago
de una duda, incluyendo promesas de extender o renovar dichas deudas que no pueden ser ejecutables. Con el fin de
protegerle a usted (prestatario(s)) y a nosotros (acreedor) de cualquier confusión o desacuerdo, todo contrato o acuerdo al que
lleguemos que atienda estos temas serán por escrito, el cual será una declaración completa y exclusiva del acuerdo o contrato
entre nosotros, exceptuando si determinamos modificar el acuerdo por escrito en un momento posterior.
New Jersey: Debido a que ciertas disposiciones de este Contrato están sujetas a la ley que rige el Contrato, las mismas
pudieran ser nulas, inaplicables o inexigibles en algunas jurisdicciones. Ningunas de estas disposiciones son nulas, inexigibles
o inaplicables en New Jersey.
New Hampshire: Honorarios de abogados razonables serán otorgados a usted si prevalece en cualquier acción, demanda o
procedimiento iniciado por nosotros o una acción presentada por usted. Además, de usted aseverar exitosamente una defensa
parcial, compensación o demanda de reconvención una acción presentada por nosotros la corte puede retener de nosotros la
cantidad completa o una porción de los honorarios de abogados que la corte entienda equitativa.
Residentes de Washington: De conformidad con el Código Revisado de Washington, Sección 63.14.167, usted no es
responsable por el pago de cualquier cargo por servicio que resultan exclusivamente de la falta de un comerciante para
transmitir a nosotros en el plazo de siete días laborables un crédito por bienes o servicios aceptados para devolución o
condonados, si usted nos ha notificado de la demora del comerciante en la transmisión/envío de dicho crédito, o nuestra falta
para reflejar dicho crédito a su cuenta dentro de los tres días laborables de nosotros haber recibido el crédito.
Aviso sobre Derechos y Protecciones bajo la Ley de Préstamos para Militares (Military Lending Act)
Si eres personal militar activo o en servicio activo, o su cónyuge o los dependientes del personal militar en servicio activo podrán
ser elegibles a ciertas protecciones legales de acuerdo a las disposiciones de la Ley de Préstamos para Militares (MLA, por sus
siglas en inglés) [32 CFR Part 232]. La siguiente declaración solo aplica si eres un deudor protegido (covered borrower) según las
definiciones de la Ley Préstamos para Militares (MLA, por sus siglas en inglés) [32 CFR Sección 232].
La ley federal provee protecciones importantes para los miembros de las Fuerzas Armadas y sus dependientes con relación al
otorgamiento de crédito de consumo. En general, el costo del crédito de consumo cobrado a un miembro de las Fuerzas Armadas y
su dependiente no podrá exceder una tasa de porcentaje anual de 36%. Esta tasa debe incluir, según aplique a la cuenta o
transacción de crédito: los costos relacionados a las primas de seguros de crédito; los cargos por productos adicionales o
complementarios vendidos como parte de la transacción de crédito; cualquier cargo cobrado por solicitud (aparte de ciertos cargos
para cuentas o transacciones de crédito especificadas); y cualquier cuota de participación cobrada (aparte de ciertas cuotas de
participación para cuentas de tarjetas de crédito). Si usted desea obtener esta divulgación oralmente, puede llamar libre de cargos
al número 1-844-773-6499.
SUS DERECHOS DE FACTURACIÓN – Conserve este documento para referencia futura
Este aviso le informa sobre sus derechos y nuestras responsabilidades a tenor de la Fair Credit Billing Act.
Qué hacer si encuentra un error en su estado de cuenta
Si piensa que hay un error en su estado de cuenta, escríbanos a la dirección que aparece en el estado de cuenta. En la carta,
provea la siguiente información.
• Información de la cuenta: Su nombre y número de cuenta.
• Cantidad en dólares: La cantidad en dólares del error que sospecha.
• Descripción del problema: Si piensa que hay un error en su factura, describa lo que estima que está incorrecto y por qué
estima que es un error.
Usted deberá comunicarse con nosotros:
• En el plazo de los 60 días después de que el error aparezca en su estado de cuenta.
• Por lo menos 3 días laborables antes de programado un pago automático, si quiere detener el pago de la cantidad que
estima incorrecta.
Usted deberá notificarnos, por escrito, cualquier posible error. Puede llamarnos pero, si lo hace, no estamos obligados a
investigar algún posible error y puede que usted tenga que pagar la cantidad en cuestión.
Qué sucede después de que recibamos su carta
Cuando recibamos su carta, deberemos hacer dos cosas:
1. En el plazo de los 30 días de recibir su carta, deberemos informarle que hemos recibido la carta. También le informaremos si
hemos corregido el error.
2. En el plazo de los 90 días de recibir su carta, deberemos corregir el error o explicarle por qué entendemos que la factura está
correcta.
Mientras investigamos si se ha cometido un error o no:
• No podemos intentar cobrar la cantidad en cuestión, ni informar que usted está en mora de dicha cantidad.

• El cambio en cuestión puede permanecer en el estado y podemos continuar cobrándole intereses sobre dicha cantidad.
• Si bien no tiene que pagar la cantidad en cuestión, usted es responsable del resto del balance.
• Podemos aplicar cualquier cantidad no pagada contra su límite de crédito.
Después de concluida nuestra investigación, sucederá una de dos cosas:
• Si cometimos un error: Usted no tendrá que pagar la cantidad en cuestión ni los intereses ni otros cargos relacionados con
dicha cantidad.
• Si no entendemos que cometimos un error: Usted tiene que pagar la cantidad en cuestión, así como los intereses y los
cargos aplicables. Le enviaremos un estado de cuenta que refleje la cantidad adeudada por usted y la fecha de vencimiento
de pago. Podemos, entonces, informar que usted está en mora si no paga la cantidad que estimamos que usted adeuda.
Si recibe nuestra explicación pero, aun así, piensa que su factura está incorrecta, deberá escribirnos en el plazo de 10 días
informándonos que todavía se niega a pagarnos. Si lo hace, no podemos informar que usted está en mora sin informar, además,
que usted cuestiona su factura. Deberemos informarle el nombre de cualquiera a quien hayamos informado que usted está en
mora y deberemos darle a conocer a dichas organizaciones cuando se resuelva el problema entre nosotros.
Si no seguimos todas las reglas establecidas previamente, usted no tiene que pagar los primeros $50 de la cantidad que
cuestionó, incluso si su factura está correcta.
Sus derechos si está insatisfecho con sus compras con tarjeta de crédito
Si está insatisfecho con los bienes o servicios que ha comprado con su tarjeta de crédito, y ha intentado de buena fe corregir el
problema con el comerciante, puede que usted tenga derecho a no pagar el resto de la cantidad adeudada de la compra.
Para ejercer este derecho, todo lo siguiente debe ser cierto:
1. La compra deberá haberse efectuado en su estado (o territorio) de residencia o dentro de las 100 millas de su dirección de
facturación actual y el precio de compra debe haber sido más de $50. (Nota: Ninguna de estas dos cosas son necesarias si
su compra se basó en una promoción que le enviamos por correo, o si somos los propietarios de la compañía que vendió los
bienes o servicios.)
2. Usted deberá haber utilizado su tarjeta de crédito para efectuar la compra. Las compras efectuadas con Adelantos de
Efectivo sacados de un cajero automático (ATM) o con un cheque con acceso a su cuenta de tarjeta de crédito no califican.
3. Usted no deberá haber pagado aún la compra en su totalidad.
Si se ha cumplido con todos los criterios esbozados aquí previamente y todavía usted está insatisfecho con la compra,
comuníquese con nosotros por escrito a la dirección que aparece en su estado de cuenta.
Mientras investigamos, las mismas reglas esbozadas anteriormente aplican a la cantidad en disputa. Después de concluida nuestra
investigación, le informaremos nuestra decisión. En ese momento, si entendemos que adeuda alguna cantidad y usted no paga,
podemos informar que está en mora.

